                                                    V-IN-VIS-0059-2002



                U.S. Department of the Interior
                Office of Inspector General

                                                  Audit Report
                         Follow-up of Recommendation Relating to
                                          Internal Revenue Taxes,
                                      Bureau of Internal Revenue,
                                 Government of the Virgin Islands




Report No. 2003-I-0059                                 August 2003
                                                                              V-IN-VIS-0059-2002




                United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                     Eastern Regional Office
                                   381 Elden Street - Suite 1100
                                     Herndon, Virginia 20170

                                                                                August 29, 2003

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject:   Audit Report “Follow-up of Recommendations Relating to Internal Revenue Taxes,
           Bureau of Internal Revenue, Government of the Virgin Islands” (No. 2003-I-0059)

Dear Governor Turnbull:

       This report presents the results of our follow-up review of recommendations contained in
the December 1997 audit report “Internal Revenue Taxes, Bureau of Internal Revenue,
Government of the Virgin Islands” (No. 98-I-188).

       The Legislation, as amended, creating the Office of Inspector General, (5 U.S.C. app. 3)
requires that we report to the Congress semiannually on all reports issued, actions taken to
implement our recommendations and recommendations that have not been implemented.
Therefore, this report will be added to the next semiannual report. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by September 30, 2003. The response should
provide the information requested in Appendix 4 and should be addressed to Mr. Roger
La Rouche, Assistant Inspector General for Audits, Office of Inspector General, U.S.
Department of the Interior, 1849 C Street, NW (MS-5341), Washington, DC 20240; with a copy
to our Caribbean Field Office, Ron deLugo Federal Building, Room 207, St. Thomas, VI 00802.

                                            Sincerely,




                                            William J. Dolan, Jr.
                                            Regional Audit Manager

cc:   Director, Virgin Islands Bureau of Internal Revenue
                                        V-IN-VIS-0059-2002




[This page intentionally left blank.]
EXECUTIVE SUMMARY

                        The Bureau of Internal Revenue (the Bureau) administers and
Despite Improvements,   collects most types of taxes in the Virgin Islands, including
Some Deficiencies       individual and corporate income, gross receipts, trade and
Still Exist in the      excise, hotel occupancy, highway user, production, gift,
Administration and      inheritance, and fuel taxes. In fiscal year 2001, the Bureau
Collection of Taxes     collected taxes totaling $484.1 million and in fiscal year 2002,
                        a total of $476.2 million. More than 31,500 income tax refunds
                        totaling $62.9 million were issued in fiscal year 2001.

                        We found that of the 14 recommendations made in our
                        December 1997 audit report "Internal Revenue Taxes, Bureau
                        of Internal Revenue, Government of the Virgin Islands,"
                        six had been fully implemented, seven had been partially
                        implemented, and one had not been implemented. While
                        improvements were made in the Bureau’s operations, some
                        problems still existed, particularly issues concerning prior
                        period tax returns.

                          The Bureau implemented a new computerized tax system,
                          based on the one used in Guam, as part of a Tax
                          Administration Improvement Project being undertaken with
                          contract assistance from the IBM Corporation. In addition,
                          the Bureau was in the process of integrating the
                          withholding and hotel occupancy tax modules onto its
                          mainframe computer. However, the Bureau did not (1)
                          integrate excise taxes into the new computer system in
                          order to easily access and research a taxpayer’s entire tax
                          payment history, (2) reverse at least $308,000 in payments
                          from taxpayer accounts for checks that were not honored by
                          the banks from June 2001 and prior, and (3) timely resolve
                          errors detected in more than 3,000 tax returns from tax
                          years 2000 and prior.

                          The Bureau hired five tax revenue clerks to address
                          taxpayer inquiries and handle delinquent taxpayer accounts
                          with balances of less than $15,000. However, they did not
                          (1) take action to collect $4.8 million from delinquent
                          taxpayers, (2) take action to collect a total of $408,000 from
                          68 delinquent accounts before the statute of limitations
                          expired, (3) file liens and levies on delinquent taxpayers to
                          serve as the government’s claim against their property, and
                          (4) provide required supporting documentation for tax


                                     i
                        penalty waivers totaling $164,000.
                        The Bureau conducted audits of casualty loss claims
                        resulting from Hurricane Marilyn. However, they did not
                        (1) document supervisory changes to tax audit workpapers
                        that affected the amount of taxes due, and (2) process
                        statutory notices of deficiency (90-day letters) in a timely
                        manner.

                      Subsequent to the completion of our audit, the Bureau fully
                      implemented its VITAX computerized tax system. Based on
                      information provided by Bureau officials during the
                      February 18, 2003 exit conference, it appears that the VITAX
                      system will provide the capabilities needed to overcome many
                      of the tax administration deficiencies that have been noted in
                      prior Bureau audits. However, we believe that the Bureau still
                      needs to strengthen its staffing in certain areas and make an
                      effort to address deficiencies related to prior year tax returns as
                      identified during this audit.


                      We made four recommendations which, if implemented, should
Recommendations to    improve the Virgin Islands administration and collection of
the Governor of the   taxes. A response received from the Director of Internal
Virgin Islands        Revenue addressed the status of the prior audit
                      recommendations but did not address the four new
                      recommendations made in this report. Therefore, the four
                      recommendations remain unresolved.




                                   ii
CONTENTS
                   Background ......................................................................... 1
INTRODUCTION       Objective and Scope ........................................................... 2
                   Prior Audit Coverage .......................................................... 2


                   Overview ............................................................................. 4
RESULTS OF AUDIT   Computer Operations........................................................... 4
                   Delinquent Accounts and Returns ......................................... 9
                   Audit Enforcement............................................................... 13


                   ............................................................................................. 16
RECOMMENDATIONS

                   1.   Status of Prior Audit Recommendations ....................... 17
APPENDICES         2.   Monetary Impact............................................................ 22
                   3.   Response to Draft Report............................................... 23
                   4.   Status of Recommendations........................................... 32




                                           iii
[This page intentionally left blank]




                     iv
INTRODUCTION

               The Virgin Islands Code (33 V.I.C. Chapter 20) established the
BACKGROUND     Bureau of Internal Revenue (the Bureau) to administer and
               enforce the laws imposing individual and corporate income,
               gross receipts, trade and excise, hotel occupancy, highway user,
               production, gift, inheritance, and fuel taxes in the Virgin
               Islands.

               According to Bureau records, they collected $484.1 million in
               taxes during fiscal year 2001 and $476.2 million during fiscal
               year 2002. More than 31,500 income tax refunds totaling
               $62.9 million were issued during fiscal year 2001.

               The Bureau had five major units: Director’s Office, Computer
               Operations, Processing Accounts and Returns, Delinquent
               Accounts and Returns, and Audit Enforcement. The Bureau
               had offices located on St. Thomas and St. Croix, with a
               combined staff of about 118 employees. Bureau personnel
               made periodic visits to St. John to assist individual and
               business taxpayers.

               During fiscal year 2000, the Director of Internal Revenue
               developed a reorganization plan to improve the Bureau’s
               effectiveness and efficiency. As part of the plan, the Director
               proposed to increase the Bureau’s staff in order to conduct
               business within the time constraints provided by law. The
               Bureau also contracted with the IBM Corporation to perform a
               detailed review of Bureau operations. In October 2000, IBM
               issued its "Assessment & Recommendations Report for the
               Bureau of Internal Revenue, US Virgin Islands." The report
               concluded that:

                  “Our overall assessment of IRB [the Bureau] indicates
                  major problems arising from poorly maintained
                  computer systems, the lack of a comprehensive
                  understanding of tax administration, absent or obsolete
                  procedures, insufficiently trained staff and most
                  importantly -- the lack of a strategic plan. These
                  problems have slowly eroded IRB’s ability to
                  administer territorial taxes and the taxpayers’
                  confidence in the system -- thus seriously
                  compromising voluntary compliance.”

               The report also stated, “Our analysis, along with extensive

                           1
                interviews, confirmed many findings of the 1997 Department of
                [the] Interior (DOI) Audit.” IBM assisted the Bureau in
                implementing the new VITAX computerized tax system based
                on the system used in Guam, developing comprehensive
                standard operating procedures and making other internal
                changes to improve overall operations.


                The objective of our audit was to determine whether (1) the
OBJECTIVE AND   Bureau of Internal Revenue implemented the recommendations
SCOPE           contained in the December 1997 audit report “Internal Revenue
                Taxes, Bureau of Internal Revenue, Government of the Virgin
                Islands” and (2) any new recommendations should be made
                based on current operations at the Bureau.

                To accomplish our audit objective, we interviewed Bureau
                officials and reviewed applicable laws, rules, and regulations.
                We examined the Bureau’s computerized database of
                delinquent accounts and returns, listings of dishonored checks,
                tax penalty waivers, and tax audit files. The scope of the audit
                included changes in policies and procedures made to implement
                the prior audit recommendations. The audit was conducted
                from May to October 2002.

                We conducted our audit in accordance with the “Government
                Auditing Standards,” issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records
                and other auditing procedures that were considered necessary
                under the circumstances.

                Because of the limited objective and scope of the audit, we only
                evaluated internal controls to the extent that they related to
                corrective actions taken on the prior audit recommendations.


                In December 1997, the Office of Inspector General issued the
PRIOR AUDIT     audit report “Internal Revenue Taxes, Bureau of Internal
COVERAGE        Revenue, Government of the Virgin Islands” (No. 98-I-188).
                The report disclosed deficiencies in the areas of computer
                operations, delinquent accounts and returns, and audit
                enforcement. Specifically, the report concluded that:

                  The Bureau did not realize all potential revenue collections
                  because it could not access a taxpayer’s complete and
                  accurate payment history for all classes of taxes from a
                  single computer system. Additionally, (1) payments were
                  not reversed from taxpayer accounts for unhonored checks,

                            2
   (2) the Bureau’s Code and Edit Unit (now the Error
   Resolution Section) did not correct mathematical and data
   entry errors in order to process tax returns in a timely
   manner, and (3) data produced by the Computer Operations
   Branch to detect nonfilers and filers of duplicate dependent
   claims were not made available to the Audit Enforcement
   Branch in a consistent and timely manner.

  The Delinquent Accounts and Returns Branch did not
  effectively use collection practices and tools to enforce the
  collection of amounts owed by taxpayers. Specifically, the
  Bureau did not (1) follow up or make reasonable efforts to
  collect amounts owed by delinquent taxpayers before the
  statute of limitations expired, (2) file liens and levies to
  serve as the government’s claim on delinquent taxpayers’
  property, and (3) provide required supporting
  documentation for tax penalty waivers.

  The Audit Enforcement Branch did not implement adequate
  internal controls to effectively administer its audit function.
  Specifically, the Bureau did not (1) use computer printouts
  from the Computer Operations Branch to detect and prevent
  nonfilers, (2) begin audits of the casualty loss claims filed
  as a result of Hurricane Marilyn, (3) conduct a sufficient
  number of audits of high-income taxpayers and
  corporations, (4) document changes made to revenue agent
  findings, (5) mail statutory notices (90-day letters) to
  taxpayers in a timely manner, and (6) transmit closed cases
  to the Processing Branch in a timely manner for
  assessment.

Report No. 98-I-188 to the Governor of the Virgin Islands
contained 14 recommendations to address the deficiencies
disclosed by the audit. Based on a response received from the
Governor in January 1998, we classified six recommendations
as resolved and implemented, seven recommendations as
resolved but not implemented, and one recommendation as
unresolved.




             3
RESULTS OF AUDIT
              Of the 14 recommendations made in the December 1997 audit
OVERVIEW      report, six had been fully implemented, seven had been
              partially implemented, and one had not been implemented.
              (Status of the recommendations and corrective actions taken are
              presented in Appendix 1.) Specifically, we found that the
              Bureau made improvements by (1) implementing the VITAX
              computerized tax system, which incorporates the processing of
              most types of taxes and has online capabilities to enhance
              overall tax administration, (2) hiring five tax revenue clerks for
              the Delinquent Account and Returns Branch to handle
              delinquent accounts of less than $15,000, (3) providing on-the-
              job training for timely processing of tax returns and formal
              training pertaining to new tax law changes and the fundamental
              principles of tax administration, and (4) maintaining master
              inventory listings and case histories for delinquent taxpayer
              accounts.

              However, we found that some deficiencies disclosed in the
              prior report still existed, particularly problems that related to
              prior year tax returns. For example, the Bureau should (1)
              reverse $308,000 in tax payments for which the checks were
              not honored by the banks, (2) resolve errors detected in more
              than 3,000 tax returns being held for resolution, (3) collect
              accounts with delinquent taxes totaling $4.8 million, (4)
              provide supporting documentation for tax penalty waivers
              totaling $164,000, and (5) ensure that statutory notices of
              deficiency (90-day letters) are processed timely.


              Our December 1997 report included four recommendations
COMPUTER      related to the Bureau’s Computer Operations Branch. We
OPERATIONS    found that one of those recommendations was fully
              implemented and three were partially implemented. The
              Bureau took action to improve the processing of income tax
              returns and refunds by implementing the new VITAX
              computerized system as part of the Tax Administration
              Improvement Project being undertaken with contract assistance
              from the IBM Corporation. However, at the time of our
              follow-up review, the Bureau had not incorporated excise tax
              information into the VITAX. This would allow access to a
              taxpayer’s entire tax payment history. In addition, tax payment
              checks totaling at least $308,000, which were not honored by
              the banks, had not been reversed from taxpayer accounts.

                               4
                              Further, the Bureau had more than 3,000 prior year tax returns
                              that were being withheld from processing because of errors.


Information on All Types of   As of July 2002, the Bureau’s new VITAX computerized tax
Taxes Was Not Integrated      system, based on the Guam tax system, contained only
into One Computer System      information on individual and corporate income tax returns for
                              tax year 2001. Tax information on withholding, hotel
                              occupancy, excise, and gross receipts had to be accessed from
                              separate stand-alone computers that did not interact with the
                              new computerized system. The Bureau had an initial target
                              date of September 1998 for integrating all taxes on one system
                              to allow easy access to a taxpayers entire tax history. However,
                              this date was not met and, according to a Bureau official, the
                              initial integration plans were abandoned because all efforts
                              were being focused on implementation of the new tax system
                              and compliance with Y2K requirements. A Bureau official told
                              us that September 2002 is the new target date for placing all
                              taxes on the new system. However, as of October 2002, this
                              had not been accomplished.

                              IBM’s “Assessment & Recommendations Report” confirmed
                              our prior report’s conclusion that the Bureau had a number of
                              tax applications in place to support the administration of
                              multiple taxes, but that a different stand-alone system was used
                              for each of the major types of taxes. Additionally, the IBM
                              report stated that there was little or no sharing of information
                              across these systems and that the systems were implemented on
                              different hardware and software platforms, using a variety of
                              programming languages. The IBM report further stated that
                              each of the systems was operating at less than full capacity or
                              was inoperable in certain instances. IBM concluded that,
                              without all classes of taxes on one system, the withholding tax
                              administration was virtually nonexistent on St. Thomas. In
                              addition, the Stop Tax Evasion Program (STEP) was not
                              effective because of the inability to easily verify withholding
                              tax compliance.

                              Seven months after release of the “Assessment &
                              Recommendations Report,” the Bureau entered into a 2-year
                              contract with IBM, at a cost of $7.8 million plus travel
                              expenses not to exceed $1.2 million, to improve the Bureau’s
                              customer service and revenue collection operations and to
                              provide a framework for a customer-focused, “e-government”
                              approach to processing taxes. At the time of our review, this
                              project was still in progress.
                              Subsequent Actions. At the February 18, 2003 exit

                                          5
                          conference, Bureau officials told us that subsequent to
                          completion of the audit, processing of all types of taxes had
                          been incorporated into the new VITAX system, with the
                          exception of excise taxes. They stated that a stand-alone
                          application based on the Microsoft Access software had been
                          developed to process excise taxes. They said the decision to
                          keep excise tax processing as a separate application was made
                          because of the high volume of low dollar value transactions
                          involved. However, Bureau officials noted that they were
                          reevaluating the decision.


Taxpayers Accounts Were   The Bureau maintained two different lists of taxpayers whose
Not Adjusted for          payment checks were not honored by the banks. Both lists
Dishonored Checks         were maintained on PC-based systems, one with Professional
Returned by Banks         File software and the other with Microsoft Excel software. The
                          systems were not able to interact with each other or with the
                          Bureau’s mainframe computer. Further, during the time of our
                          review, Bureau personnel were unable to access the
                          Professional File system and submitted a previously printed
                          register of dishonored checks. The register showed that, during
                          the period of September 1990 to June 2001, the Bureau
                          received 1,016 checks, originally valued at $1.5 million, which
                          were not honored by the banks. These checks still had
                          outstanding balances totaling about $1.2 million.

                          We selected for detailed review a sample of 25 taxpayers who
                          wrote 42 dishonored checks with a total value of $308,000. We
                          found that the Bureau attempted to collect delinquent funds by
                          sending computer-generated letters reminding taxpayers of
                          their obligation to pay -- requesting payment of the original
                          amount, plus a $15 insufficient funds fee and calculated
                          interest. We identified four instances where the Bureau
                          collected on dishonored checks. However, taxpayer accounts
                          had been adjusted to show that the original tax amounts were
                          still owed. As a result, at least $308,000 in tax revenues shown
                          on the Bureau’s mainframe computer actually had not been
                          collected. For example:

                            On January 13, 2000, a construction company issued two
                            checks of $35,000 each for payment of delinquent taxes.
                            The payments were posted on the Bureau’s mainframe
                            computer, but the revenue officer did not indicate on the
                            case history sheet the tax periods or types of taxes for the
                            $70,000. The checks were later returned by the bank for
                            insufficient funds. Although the Bureau sent the taxpayer


                                      6
                                two notices demanding payment, the original payment
                                transactions were not reversed from the taxpayer account
                                because the Bureau could not determine how the $70,000
                                payment had originally been applied.

                             The Bureau’s Chief of Processing Accounts and Returns stated
                             that dishonored checks received for payment of withholding,
                             gross receipts, and excise taxes were not reversed. However,
                             The Chief stated that dishonored checks for income tax
                             payments were reversed. We attempted to verify the Chief’s
                             statement by reviewing the Bureau’s debit advices for income
                             taxes as far back as 1988, but did not find a single example of
                             income tax payments being reversed as a result of dishonored
                             checks.

                             We believe that the new computerized tax system should record
                             all transactions having to do with dishonored checks so account
                             balances are accurate. The IBM report concurred that this was
                             an important issue. The report stated that when dishonored
                             check payments are not reversed, “a fragmented business
                             process exists that compromises effectiveness of tax
                             administration. . . . This fragmented business process is totally
                             inadequate, because it fails to restore a taxpayer’s account to
                             the balance that existed prior to the NSF [non-sufficient funds]
                             payment so that the appropriate penalties or fees can be posted
                             and collected.”

                             Subsequent Actions. At the February 18, 2003 exit
                             conference, Bureau officials told us that the new VITAX
                             system incorporates the processing of dishonored checks. They
                             stated that once the Bureau receives notification from the
                             Department of Finance that a dishonored check has been
                             returned by the bank, a bad check penalty will be assessed by
                             the system. Further, the system will automatically create a
                             document (Form 1331) to reverse the dishonored payment and
                             will prepare a notice to inform the taxpayer of the dishonored
                             check amount and the applicable bad check penalty.


Tax Returns Were Being       The Bureau’s Error Resolution Section (formerly the Code and
Held Pending Correction of   Edit Unit) was responsible for ensuring that tax returns and
Errors or Receipt of         accompanying forms were accurate and complete. If errors
Missing Information          were found, the tax return was held until the taxpayer
                             responded to a computer-generated letter requesting the needed
                             tax information. At the time of our review, the Bureau was
                             holding a total of 3,046 tax returns from tax years 1990 to 2000
                             because of either mathematical errors or missing information.

                                          7
                       However, the Error Resolution Section was not effectively
                       staffed to handle the workload.

                       A temporary employee was hired and five employees (three
                       from the Audit Enforcement Branch and two from the
                       Delinquent Accounts and Returns Branch) were temporarily
                       reassigned to the Error Resolution Division. These employees
                       received on-the-job training for their new duties but were
                       assigned to process only tax year 2001 returns. This still leaves
                       all of the 3,046 tax returns from tax years 1990 to 2000 to be
                       processed which we believe will still require a massive effort.

                       We selected a sample of 30 tax returns from the Bureau’s
                       current error registers to determine whether delays were still
                       occurring in clearing the registers. However, we were unable
                       to determine the actual status of 26 of these returns. The
                       Bureau could not locate 18 of the 26 returns and 8 other tax
                       returns contained no indication as to why they were being held.
                        As a result, we could not determine if the returns were
                       reviewed for processing or not. We found that the four
                       remaining tax returns selected in our review were quickly
                       cleared from the register.

                       Subsequent Actions. At the February 18, 2003 exit
                       conference, Bureau officials stated that candidates were being
                       interviewed for vacant positions in the Error Resolution Section
                       and that all current Section staff had online access to the
                       VITAX system in order to expeditiously process tax returns. In
                       addition, we were given a live demonstration of how existing
                       staff use the VITAX system to review and resolve tax return
                       errors online. For errors requiring additional information, the
                       system can generate the necessary notices to be sent to the
                       taxpayers.


Information Was Not    The Computer Operations Branch did not produce
Produced for Tax       computerized reports that could be used by the Audit
Enforcement Purposes   Enforcement Branch in identifying nonfilers, taxpayers who
                       under-reported their income, and filers of duplicate dependent
                       claims because it had not captured the Form 1099-MISC
                       (miscellaneous income) and Form W-2 (wage and tax
                       statement) information for tax years 1997 through 2001. In
                       addition, the Computer Operations Branch could not easily
                       prepare reports comparing gross sales amounts reported in
                       business income tax returns with gross receipts reported on
                       business gross receipts tax returns because the two types of
                       information were maintained on separate computer systems.

                                    8
               As a result, important information that would have allowed the
               Audit Enforcement Branch to identify nonfilers, filers of
               duplicate dependent claims, and taxpayers who under-reported
               their income was not available.

               The IBM assessment report confirmed our audit finding and
               stated, “The annual withholding transmittal documents, Forms
               W-2/W-3 and Form 1099 information are never processed,
               even though the law requires they be filed. This information is
               never reconciled against the individual income tax withholding
               credits claimed, so the bureau has an additional fraud
               exposure.” The report also stated that “the IRB lacks the
               capability to cross check information filed on information
               returns and that filed on tax returns.”

               Subsequent Actions. At the February 18, 2003 exit
               conference, Bureau officials stated that there was no longer a
               need for the Computer Operations Branch to produce special
               reports for the Audit Enforcement Branch because the new
               VITAX system has flexible online query capabilities. They
               said that the Audit Enforcement Branch has developed detailed
               audit selection criteria, which can be used to query the tax
               database. Examples given were queries based on gross receipts
               taxes paid, withholding taxes paid, or tax credits claimed,
               among other criteria. Bureau officials also noted that the
               identification of duplicate dependent claims was an integral
               part of VITAX processing of income tax returns and that the
               system had identified more than 2,000 cases of duplicate
               dependent claims for tax year 2001 returns. In these cases,
               prior year tax returns were also reviewed for similar duplicate
               dependent claims.



               Our December 1997 report included five recommendations
DELINQUENT     related to the Delinquent Accounts and Returns Branch. We
ACCOUNTS AND   found that two of those recommendations were fully
RETURNS        implemented and three were partially implemented. The
               Bureau hired five tax revenue clerks in April 1998 to handle
               delinquent taxpayer accounts with balances of less than
               $15,000 and to address taxpayer inquiries. However, the
               Bureau did not effectively perform collection enforcement
               activities, including the use of liens and levies, for taxpayers
               whose accounts were delinquent nor did they make reasonable
               efforts to protect the government’s interests before the statute
               of limitations expired. Additionally, the Bureau did not
               maintain required supporting documentation for tax penalty

                           9
                          waivers.


Collection Enforcement    The Delinquent Accounts and Returns Branch was responsible
for Delinquent Accounts   for collecting unpaid taxes administered by the Bureau. We
Was Ineffective           found, however, that for the majority of taxpayer cases
                          reviewed, revenue officers did not enforce or follow up on the
                          collection of taxes owed. We reviewed 40 taxpayer case files
                          containing 540 taxpayer delinquent accounts with outstanding
                          taxes totaling $5.9 million. We found that, for 33 taxpayers
                          with 214 taxpayer delinquent accounts totaling $4.8 million,
                          there was little or no collection effort undertaken by revenue
                          officers in the form of liens, levies, or follow-up on defaulted
                          taxpayer installment agreements. For example:

                            For a taxpayer who owed income taxes for 1998 totaling
                            about $33,000, the case file showed that the assigned
                            revenue officer did not make any collection efforts.

                            For an air conditioning firm that owed income taxes for
                            1996, 1998, 1999, and 2000 totaling about $37,000, the
                            case file also showed that no collection efforts were made
                            by the assigned revenue officer.

                            For a restaurant owner who owed various taxes totaling
                            more than $18,000, the case file showed that no collection
                            efforts were made by the assigned revenue officer during
                            the period of November 16, 1999 to June 27, 2002.

                            For another restaurant owner who owed gross receipts taxes
                            for 1994 through 2000 and income taxes for 1999 totaling
                            about $75,000, the case file showed that the only collection
                            efforts made by the assigned revenue officer were to
                            execute two installment agreements, both of which were
                            now in default. No further efforts were made to bring the
                            defaulted agreements into compliance.

                            For an engineering company that owed gross receipts and
                            withholding taxes for 1996 through 2001 totaling about
                            $252,000, the case file showed that the only collection
                            effort made by the assigned revenue officer was a 1996
                            installment agreement, which also was now in default. No
                            further efforts were made to bring the defaulted agreement
                            into compliance.

                          The revenue officers told us that liens or levies could not be


                                      10
used without knowing the specific assessment dates, which
should be documented on computer-generated taxpayer
delinquent account forms (forms). These forms contain
information detailing the types of tax returns filed, the taxes,
penalties, and interest that were assessed, and the payments
received. Using this information, liens and/or levies can be
made and later documented on the forms. However, if the
forms are not prepared, the revenue officers are unaware of any
outstanding delinquent amounts. Despite the importance of the
forms, the case files for 214 of the 540 taxpayer delinquent
accounts reviewed did not have a form. A revenue officer told
us that, in the majority of cases, they were not aware of the
amount of delinquent taxes until taxpayers called to inquire
about the status of their accounts.

We also found that the Bureau would be unable to collect on
68 of the 540 taxpayer delinquent accounts reviewed because
the statute of limitations had expired. As a result, the Bureau
lost the opportunity to collect about $408,000 in delinquent
taxes. In 41 of the 68 instances where the statute of limitations
had expired, the revenue officers did not make any notations on
the case history sheets or report to the Assistant Chief of
Delinquent Accounts and Returns by means of Form 53D
(Report of Currently Not Collectible Taxes) that the statute of
limitations was about to expire. Moreover, the revenue officers
did not maintain case history sheets to show if any collection
activity was undertaken for 7 of the 40 taxpayer case files
reviewed and did not adequately document collection activities
for 24 other case files.

According to the Assistant Chief of the Delinquent Accounts
and Returns Branch, although there were technically four
revenue officers assigned to handle delinquent taxpayer
accounts with balances of more than $15,000, two of the
revenue officers were currently on loan to the Bureau’s Error
Resolution Division and three revenue officers had previously
been on loan to the Processing Accounts and Returns Branch
for a period of 1 year. As a result, the Delinquent Accounts
and Returns Branch was hampered in its collection efforts
because the workload was too great to be handled effectively
by the remaining staff.




The IBM report stated that one of the reasons it was nearly
impossible for the Bureau to adequately administer taxes was

            11
                           that “the Audit and Collection functions have tremendous
                           clerical responsibilities, poor data quality, and misguided
                           priorities.” We agree with this assessment and believe that the
                           Bureau should place greater emphasis on the collection of
                           delinquent taxes in the Virgin Islands.

                           Subsequent Actions. At the February 18, 2003 exit
                           conference, Bureau officials stated that the Delinquent
                           Accounts and Returns Branch continues to be short-staffed.
                           For example, they pointed out that that there are 5 vacant
                           positions out of 11 in the St. Thomas office and 5 vacant out of
                           6 in the St. Croix office. They also said that, despite the
                           staffing problems, since 2002 the Branch’s revenue officers and
                           revenue representatives have been instructed to promptly
                           follow-up with delinquent taxpayers.

                           Bureau officials also stated that the Delinquent Accounts and
                           Returns Branch developed a Microsoft Access application,
                           which includes the data elements recommended in the 1997
                           report, to maintain a master inventory of taxpayer accounts
                           assigned to the revenue officers.

                           Further, Bureau officials said that liens and levies are being
                           used as part of the collection enforcement process to the extent
                           deemed necessary and appropriate by the revenue officers and
                           their supervisors.

Tax Penalty Waivers Were   The Bureau did not maintain a listing of tax penalty waivers
Not Always Properly        granted to delinquent taxpayers. Therefore, they provided us
Documented                 with two boxes containing waivers issued during 1998 to 2000,
                           which were being held in storage. We found that during the
                           3-year period, the Bureau issued 396 tax penalty waivers
                           totaling more than $815,000. Of the 396 waivers issued, 263
                           were processed by the Delinquent Accounts and Returns
                           Branch, 57 by the Processing Accounts and Returns Branch,
                           31 by the Director, 28 by the Legal Counsel, 12 by the Federal
                           Disclosure Officer, 3 by the Audit Enforcement Branch, and
                           2 by the Deputy Director. Our review also disclosed that
                           although taxpayers were required to submit to the Bureau
                           written requests for waiver of tax penalties, 177 of the 396 tax
                           penalty waivers, totaling about $164,000, were processed
                           without written decisions by the Bureau to support the waivers.
                           Therefore, there was no assurance that the penalty waivers were
                           issued in accordance with applicable regulations.
                           Subsequent Actions. At the February 18, 2003 exit
                           conference, Bureau officials stated that the new VITAX system
                           produces a Form 1331 that is used to capture and document the

                                       12
                             reason for penalty waivers. They also pointed out that recent
                             changes to the Internal Revenue Code no longer require that
                             taxpayers submit requests for penalty waivers in writing.
                             Telephonic requests are now also accepted.


                             Our December 1997 report included five recommendations
AUDIT ENFORCEMENT            related to the Audit Enforcement Branch. We found that three
                             of those recommendations were fully implemented, one was
                             partially implemented, and one was not implemented. The
                             Bureau conducted audits of casualty loss claims resulting from
                             Hurricane Marilyn, but (1) had not hired senior revenue agents
                             to handle complex tax cases and (2) did not process statutory
                             notices of deficiency (90-day letters) in a timely manner.


Complex Tax Returns Were     As had been the case during our prior audit, we found that the
Not Routinely Reviewed for   Audit Enforcement Branch continued to allocate most of its
Possible Audit Issues        resources to auditing tax returns that claimed the earned income
                             credit. A Bureau official explained that they focused their
                             resources in this area because they felt they would be unable to
                             recoup funds from low income taxpayers who had abused the
                             credit but had already received a tax refund. However,
                             complex tax returns were generally not reviewed to the same
                             extent. For example, our review of the tax case inventory of
                             the Bureau’s revenue agents on St. Thomas and St. Croix
                             showed that they had a total of 173 complex tax returns
                             pending to be audited. However, of the 173 returns, 93 were
                             for tax years1990 through 1997. Therefore, the 3-year statute
                             of limitations for making tax assessments on a filed income
                             tax return had expired in all 93 cases.

                             As stated in our December 1997 report, we believe that a
                             program of randomly selected tax returns for audit (for
                             example, from business professionals, construction contractors,
                             business license applicants, or regular taxpayers) would help to
                             promote voluntary tax compliance.

                             Subsequent Actions. At the February 18, 2003 exit
                             conference, Bureau officials stated that, based on available staff
                             resources, the Audit Enforcement Branch had audited casualty
                             loss claims related to Hurricane Marilyn on a random sample
                             basis. Additionally, revenue agents had recently completed
                             IRS training in the states, and the Bureau was planning to hire a
                             retired IRS employee as a senior revenue agent next year.

                             Bureau officials also stated that the Audit Enforcement Branch

                                         13
                       had performed audits of taxpayers in several professional
                       categories, including doctors, attorneys, contractors, and
                       service-station owners. Further, the new VITAX system gave
                       the Audit Enforcement Branch the capability to establish
                       specific criteria for selection of tax returns for audit. Bureau
                       officials also said that during the summer the reviewer/conferee
                       conducted a review of taxpayers based on 1099-MISC forms
                       filed with the Bureau.


Changes to Tax Audit   According to a computerized worksheet of closed cases
Workpapers Were Not    provided by the Audit Enforcement Branch, 13,605 audit cases
Always Approved by a   were closed during calendar years 1998 to 2001. We selected a
Supervisor             judgmental sample of 50 case files for review, but 5 files could
                       not be located by the Bureau. Of the 45 case files reviewed, we
                       found eight instances in which the tax due amounts shown in
                       the revenue agents’ audit workpapers were changed by a total
                       of $100,594, but there were no supervisory approvals of the
                       changes. We believe that all changes to the tax audit
                       workpapers should be approved by a supervisor to ensure that
                       the changes are legitimate.

                       We also attempted to determine the average time it took for
                       revenue agents to process assigned taxpayer cases, but were
                       unable to make that determination because assignment dates
                       were not recorded. The Audit Enforcement Branch’s group
                       supervisor told us that knowing the assignment dates was
                       "immaterial." However, we believe that such information is
                       important because the Bureau has to make assessments within
                       the 3-year statute of limitations. Therefore, tax return audits
                       must be completed in sufficient time to meet the statutory
                       limitation.

                       Of the 45 case files reviewed, 41 files did not indicate the date
                       the return was assigned to a revenue agent, the date the review
                       was completed by the revenue agent, nor the date the
                       supervisor approved the case for closure. For the remaining
                       four cases, it took from 17 to 99 working days for the cases to
                       be processed and closed.



                       Subsequent Actions. At the February 18, 2003 exit
                       conference, Bureau officials stated that documentation was now
                       required for supervisory approvals of tax audit changes.



                                   14
Statutory Notices of Tax   Statutory notices of deficiency (90-day letter) are issued to
Deficiency Were Not        taxpayers in audit cases where agreement on tax matters is not
Issued Timely              reached. Of the 45 cases reviewed, we found that 11 90-day
                           letters were issued to the taxpayers. A taxpayer who receives a
                           90-day letter can either file a petition with the District Court of
                           the Virgin Islands requesting a waiver for immediate
                           assessment or wait for the deficiency to be assessed when the
                           90-day period has expired. Of the 11 90-day letters issued,
                           3 were not sent to the Processing Branch for assessment and
                           8 were not sent to the taxpayer in a timely manner. Therefore,
                           in all 11 cases, the Bureau was precluded from initiating
                           collection action on tax amounts due as a result of completed
                           audits.

                           Subsequent Actions. At the February 18, 2003 exit
                           conference, Bureau officials stated that they were reviewing the
                           workflow between the Office of Chief Counsel and the
                           reviewer/conferee to determine what changes can be made to
                           ensure timely processing of the 90-day letters.




                                       15
RECOMMENDATIONS
                           We recommend that the Governor of the Virgin Islands require
TO THE GOVERNOR OF the Director of Internal Revenue to:
THE VIRGIN ISLANDS
                              1. Develop a plan of action for fully implementing
                           recommendations from the December 1997 report that are
                           classified as “partially implemented” or “not implemented.”
                           The plan of action should include the title of responsible
                           officials and the target dates for corrective actions, and should
                           focus on pending issues related to prior period tax returns.

                              2. Coordinate with the Department of Finance to establish
                           procedures to ensure that delinquent taxes are offset against
                           payments made to government vendors and contractors.

                              3. Ensure that revenue officers use all available resources,
                           including the use of liens or levies, to collect taxes owed on
                           delinquent accounts. The Bureau should also take action to
                           write-off old accounts that are deemed to be uncollectible.

                               4. Place a high priority on completing audits of tax returns
                           selected for review that are nearing the end of the 3-year
                           statute of limitations.



AUDITEE RESPONSE           We received a February 19, 2003 response (Appendix 3) to the
                           preliminary draft report from the Director of Internal Revenue
                           that addressed the status of the prior audit recommendations
                           (see Appendix 1). We incorporated information from that
                           response into the body of the report. However, we did not
                           receive a follow-up response to the official draft report that
                           addressed the four new recommendations made in the report.
                           Therefore we consider Recommendations 1 through 4 to be
                           unresolved (Appendix 4).




                                           16
APPENDIX 1 - STATUS OF PRIOR RECOMMENDATIONS
                                Report No. 98-I-188
                             Internal Revenue Taxes,
                            Bureau of Internal Revenue,
                          Government of the Virgin Islands

            Prior Recommendations                        Status of Corrective Actions Taken

A.1. Develop a detailed action plan that
outlines the Bureau’s implementation schedule      Partially Implemented. Although the Bureau
for integrating the withholding, hotel             did not meet its September 1998 target date, the
occupancy, and excise taxes modules onto the       Bureau’s new VITAX system has since been
mainframe computer so that this project is         implemented. It integrates the processing of
completed by the Bureau’s September 1998           income, withholding, gross receipts, and hotel
target date.                                       occupancy taxes. At the exit conference, Bureau
                                                   officials stated that they decided not to integrate
                                                   excise taxes into the new system because of the
                                                   high volume of low dollar value transactions.
                                                   However, that decision was being reconsidered
                                                   by the Bureau.
A.2. Ensure that entries for tax payments
made with checks that have not been honored        Partially Implemented. We reviewed 42
by a bank are reversed from taxpayer accounts      checks totaling $308,000 that were paid by
as paid amounts within a reasonable time (such     taxpayers but not honored by the banks, and
as 30 days) after the date that they were          found that none were reversed from taxpayer
presented in payment of the accounts. Also,        accounts. We further reviewed the Bureau’s
consideration should be given to integrating the   debit advices for income taxes as far back as
listing of checks not honored onto the             1988 and did not find any examples of reversed
mainframe computer and developing a program        income tax payments. At the exit conference,
to allow interaction between the listing and the   Bureau officials stated that processing of
payment posting process.                           dishonored checks was incorporated into the new
                                                   VITAX system. Once the Bureau is notified by
                                                   the Department of Finance that a check has been
                                                   returned by the bank, a form is generated on the
                                                   computer to assess the taxpayer for the original
                                                   tax amount and the applicable bad check penalty.




                                                    17
                                                                                       APPENDIX 1
                                                                                         Page 2 of 5
            Prior Recommendations
                                                          Status of Corrective Actions Taken
A.3. Assess the causes for the delays in
clearing income tax error registers and ensure      Partially Implemented. We were unable to
that the Code and Edit Unit has sufficient staff    determine the actual status of 26 of 30 returns
resources, training, and computer access to         selected for review because either they could not
process tax returns expeditiously.                  be located or there was no explanation as to why
                                                    they were being held. At the exit conference,
                                                    Bureau officials stated that the Code and Edit
                                                    Unit was renamed the Error Resolution Section
                                                    and candidates were being interviewed for
                                                    vacant positions. Additionally, we were given a
                                                    live demonstration of how existing staff use the
                                                    new VITAX system to review and resolve tax
                                                    return errors online. For errors requiring
                                                    additional information from the taxpayers, the
                                                    system generates the necessary notice to be sent
                                                    to the taxpayers.

A.4. Require the Computer Branch to                 Implemented. Although the Computer Branch
produce printouts of nonfilers, filers of           still did not produce the recommended printouts
duplicate dependent claims, and comparisons of      for tax audit purposes, the Bureau’s new VITAX
businesses’ sales and gross receipts taxes paid     system includes the capability for online queries
on an annual basis and to provide the results to    of the taxpayer database based on criteria
the Audit Enforcement Branch.                       developed by the Audit Enforcement Branch.
                                                    For example, the Audit Enforcement Branch was
                                                    able to identify and take action on more than
                                                    2,000 cases of duplicate dependent claims for tax
                                                    year 2001. Additionally, the Audit Enforcement
                                                    Branch can query the system based on such
                                                    elements as gross receipts taxes paid,
                                                    withholding taxes paid, or tax credits claimed.

B.1. Ensure that Revenue officers in the            Partially Implemented. We found that revenue
Delinquent Accounts and Returns Branch              officers did not perform follow-up collection
follow up with all taxpayers within 10 days         activities on delinquent accounts or make
after a taxpayer misses the specific payment        reasonable collection efforts before the statute of
deadline in accordance with the Internal            limitations on collections expired for 68 taxpayer
Revenue Code.                                       delinquent accounts totaling $408,000. At the
                                                    exit conference, Bureau officials stated that
                                                    additional staff was being hired to fill vacant
                                                    positions in the St. Thomas and St. Croix offices
                                                    of the Delinquent Accounts and Returns Branch
                                                    to ensure timely collection action.


                                                   18
                                                                                         APPENDIX 1
                                                                                           Page 3 of 5

                                                            Status of Corrective Actions Taken
            Prior Recommendations
                                                      Implemented. For prior period tax returns, we
B.2. Ensure that Revenue officers maintain a          found that 31 of 40 case history sheets reviewed
master inventory listing and case histories for       either did not contain evidence of collection
each taxpayer account assigned to them. The           activity or did not document that adequate
master inventory listing should identify when         collection activity was undertaken. At the exit
the statute of limitations will expire for each       conference, Bureau officials stated that the
case, and the case histories should include the       Delinquent Accounts and Returns Branch had
taxpayer’s residential address and telephone          developed a computer program to maintain a
number, each collection action taken by the           complete inventory of assigned cases, including
Revenue officer, and a plan of action to close        the information defined in the recommendation.
the case.
                                                      Partially Implemented. For prior period tax
B.3. Enforce the provisions of the Virgin             returns, we found that revenue officers did not
Islands Code regarding the use of liens and           use liens and levies as collection tools to enforce
levies as collection tools.                           the collection of amounts owed in 33 of
                                                      40 taxpayer case files reviewed that comprised
                                                      214 taxpayer delinquent accounts totaling
                                                      $4.8 million. At the exit conference, Bureau
                                                      officials stated that they were now using liens
                                                      and levies when deemed necessary and
                                                      appropriate.

                                                      Implemented. The Bureau hired five Tax
B.4. Determine the feasibility of assigning,          Revenue Clerks in April 1998 to handle
permanently or temporarily, tax revenue clerks        delinquent taxpayer cases with outstanding taxes
and/or taxpayer representatives from other            totaling less than $15,000, delinquent taxpayers
branches to the Delinquent Accounts Branch,           without appointments, and taxpayer inquiries,
who can address taxpayer inquiries, or of             and to redirect telephone calls to the appropriate
redirecting calls telephonically to other             employees in the other branches.
branches where taxpayer representatives are
located.                                              Partially Implemented. For prior period tax
                                                      returns, we found 177 instances totaling
B.5. Ensure that penalty waivers are granted          $164,000 where the Bureau did not document
only in accordance with established regulations.      supervisory approval of penalty waivers. At the
 In that regard, each request for a penalty waiver    exit conference, Bureau officials stated that
should include a written request from the             Internal Revenue Code changes removed the
taxpayer and a written decision by the Bureau to      requirement for written requests for penalty
approve or deny the request based on                  waivers. Additionally, the new VITAX system
reasonable cause as defined by the Internal           provides for online processing of penalty
Revenue Code.                                         waivers.



                                                     19
                                                                                      APPENDIX 1
                                                                                         Page 4 of 5
                                                           Status of Corrective Actions Taken

                                                     Partially Implemented. The Bureau did not
            Prior Recommendations                    hire senior revenue agents to audit the 1995
                                                     casualty loss claims and complex tax issues.
C.1. Request that the legislature appropriate        However, formal training pertaining to the new
funds for the Bureau to hire qualified senior        tax law changes and the fundamental principles
revenue agents to conduct audits of the casualty     concerning taxation was provided to existing
loss claims filed as result of Hurricane Marilyn     revenue agents. At the exit conference, Bureau
and to conduct audits of complex tax issues. In      officials stated that funding was being sought to
addition, the senior revenue agents should           hire a retired IRS employee as a senior revenue
provide on-the-job training to the Audit             agent. They also stated that the casualty loss
Branch’s other revenue agents.                       claims were audited on a random sample basis.

                                                     Implemented. The Computer Branch still did
                                                     not produce listings of nonfilers and filers of
                                                     duplicate dependent claims. However, the new
C.2. Require the Audit Branch to use the             VITAX system includes the capability for online
printouts that identify non-filers and filers of     queries of the taxpayer database based on criteria
duplicate dependent claims produced by the           developed by the Audit Enforcement Branch.
Computer Branch and to establish audit criteria      Additionally, at the exit conference, Bureau
to select returns from these lists for audit         officials stated that the reviewer/conferee
examination based on the potential to produce        conducts an annual nonfiler review based on
additional revenue for the Bureau.                   1099-MISC forms submitted to the Bureau.

                                                     Implemented. We found that the Audit
                                                     Enforcement Branch allocated most of its audit
                                                     resources to auditing earned-income credit cases.
C.3. Require the Audit Branch to select for          However, at the exit conference, Bureau officials
audit a random sample of taxpayers from              stated that they also had completed audits of tax
sources such as business professionals,              returns in selected professions including doctors,
construction contractors, professional service       attorneys, contractors, and service-station
contractors with the Government of the Virgin        owners.
Islands, and business license applicants in order
to have a more comprehensive universe of tax
returns and to use available enforcement             Implemented. We found that, in 8 of 19 cases,
measures to promote taxpayer compliance.             supervisory approvals of tax audit changes were
                                                     not documented. At the exit conference, Bureau
C.4.    Require     the    Audit     Branch’s        officials stated that documentation was now
reviewer/conferee and the group supervisors to       required for supervisory approvals of tax audit
document changes to workpaper files that affect      changes.
tax amounts due and to include supervisory
approval of these changes in revenue agents’
workpaper files.


                                                    20
                                                                                       APPENDIX 1
                                                                                          Page 5 of 5
                                                            Status of Corrective Actions Taken

            Prior Recommendations                     Not Implemented. We found that additional
                                                      personnel was not allocated to aid in the
C.5. Provide or allocate additional personnel         processing of the statutory notices of deficiency
to the reviewer/conferee’s secretary to aid in the    (90-day letter). Further, in 11 instances where
processing of the statutory notices of deficiency     statutory notices were issued, three were not
(90-day letters) in a timely manner and to            forwarded to the Processing Branch for
remove the 90-day letters from the audit files        assessment and eight were not sent to the
for transmission to the Processing Branch for         taxpayers in a timely manner. At the exit
assessment in a timely manner.                        conference, Bureau officials stated that they
                                                      were reviewing the work flow between the
                                                      Office of General Counsel and the
                                                      reviewer/conferee to determine what changes
                                                      can be made to ensure timely processing of the
                                                      90-day letters.




                                                     21
APPENDIX 2 - MONETARY IMPACT
                                          Unrealized
                      Finding Area        Revenues

Computer Operations
  Dishonored Checks                        $308,000

Delinquent Accounts and Returns
   Delinquent Taxes Receivable             4,800,000
   Lapsed Statute of Limitations             408,000

   Totals                                 $5,516,000




                                     22
APPENDIX 3 - RESPONSE TO DRAFT REPORT




                     23
     APPENDIX 3
       Page 2 of 9




24
     APPENDIX 3
       Page 3 of 9




25
     APPENDIX 3
       Page 4 of 9




26
     APPENDIX 3
       Page 5 of 9




27
     APPENDIX 3
       Page 6 of 9




28
     APPENDIX 3
       Page 7 of 9




29
     APPENDIX 3
       Page 8 of 9




30
     APPENDIX 3
       Page 9 of 9




31
APPENDIX 4 - STATUS OF RECOMMENDATIONS

 Finding/Recommendation
        Reference              Status                 Action Required

         1 to 4           Unresolved.   Consider the recommendations and provide
                                        a response that states concurrence or
                                        nonconcurrence. If concurrence is stated,
                                        provide a corrective action plan that includes
                                        the target dates and titles of the officials
                                        responsible for implementation of the
                                        recommendations.
                           How to Report
              Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Field Office          340-774-8300
                             Northern Pacific Field Office   916-978-5630
              Internet:      www.oig.doi.gov/hotline_form.html




                                U.S. Department of the Interior
                                Office of Inspector General
                                    1849 C Street, NW
                                 Washington, DC 20240
                                          www.doi.gov
